August 22, 2008

ALEXANDER E. LAZAROFF
CHIEF POSTAL INSPECTOR

DEBORAH M. GIANNONI-JACKSON
VICE PRESIDENT, EMPLOYEE RESOURCE MANAGEMENT

SUBJECT:     Audit Report – Security Clearances for Postal Service Employees
             (Report Number SA-AR-08-013)

This report presents the results of our audit of the Security Clearances for Postal
Service Employees (Project Number 08YG016SA000). Our objective was to
determine whether the U.S. Postal Service’s process for identifying positions that
require a security clearance is effective to mitigate personnel security risks. We
conducted this self-initiated audit because personnel security is critical for the
Postal Service. This is our third report in a series of audits reviewing personnel
security. Click here to go to Appendix A for additional information about this
audit.

Conclusion

We determined the Postal Service could improve its process for identifying
positions that require a security clearance to more effectively mitigate personnel
security risks. Click here to go to Appendix B for our detailed analysis of this
topic.

Risk Assessment for Postal Service Positions

Postal Service officials have not conducted a comprehensive risk assessment to
determine which Postal Service positions require a security clearance since July
1999. This occurred because management did not establish policies and
procedures requiring periodic assessments to determine risks associated with
the duties of all Postal Service positions.

Conducting risk assessments of all Postal Service positions helps ensure
employees have appropriate security clearances and reduces the security risk to
employees, customers, the mail, and critical assets.

We recommend the Chief Postal Inspector, in conjunction with the Vice
President, Employee Resource Management:
Security Clearances                                                    SA-AR-08-013
 for Postal Service Employees


1. Establish and implement a policy to periodically assess the risks associated
   with the duties of all Postal Service positions to determine which positions
   require a security clearance.

2. Revise the Administrative Support Manual, as appropriate, to reflect changes
   to the list of positions requiring a security clearance.

Management’s Comments

Management agreed with our recommendations. Management stated they will
establish and implement a policy to periodically assess the risk associated with
the duties of Postal Service positions to determine which positions require a
security clearance. The policy will be in effect by the end of fiscal year (FY)
2009. In addition, management stated they will revise the Administrative Support
Manual, as appropriate to reflect the changes by the end of FY 2009.
Management’s comments, in their entirety, are included in Appendix C.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers
management’s comments responsive to the recommendations, and the
corrective actions should resolve the issues identified in the findings. The OIG
considers both recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written
confirmation when corrective actions are completed. These recommendations
should not be closed in the follow-up tracking system until the OIG provides
written confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have
any questions, or need additional information, please contact Andrea L.
Deadwyler, Director, Inspection Service and Facilities, or me at (703) 248-2100.


    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachment

cc: Mangala P. Gandhi
    Guy J. Cottrell
    John F. Bolger
    Katherine S. Banks




                                          2
Security Clearances                                                                           SA-AR-08-013
 for Postal Service Employees


APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The U.S. Postal Service, an independent establishment of the executive branch
of the U.S. government, operates like a business and generated $74.7 billion in
revenue and had 785,929 employees in FY 2007. The Postal Service is
responsible for maintaining public trust and security of the mail as well as
assuring confidence in the reliability and integrity of its employees.
The Postal Service’s personnel security process encompasses screening
employees for suitability and granting security clearances. All Postal Service
employees undergo a suitability screening; however, depending on the position,
some employees may need security clearances, which require a more extensive
background investigation.

A key element in maintaining national security; ensuring the integrity of the mail;
and protecting postal employees, customers, and assets, is the issuance of
proper security clearances. The Chief Postal Inspector or designee is
responsible for issuing security clearances for Postal Service employees. If an
employee needs a security clearance, the type of clearance granted depends on
the sensitivity of the position held. The sensitive level of clearance within the
Postal Service encompasses both national security1 and public trust2 positions.
Employee Resource Management is responsible for the suitability process and
they coordinate with the Postal Inspection Service regarding suitability and
security clearance investigations.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether the Postal Service’s process for
identifying positions that require a security clearance is effective to mitigate
personnel security risks.

To accomplish our objective, we interviewed Postal Inspection Service officials,
including officials located at the Security Investigation Service Center, to gain an
understanding of their roles and responsibilities and the processes and
procedures used for security clearances. We examined applicable Postal
Service policies and procedures, assessed related internal controls, and
identified Postal Service employees who were arrested and convicted. We
reviewed security clearance data for current Postal Service employees from the
Postal Inspection Service Security Clearance Tracking System (ISSCTS) to
determine the number of employees with security clearances. To conduct a
comparative analysis of the data retrieved from the ISSCTS and to identify

1
  National security clearances include Confidential, Secret, Top Secret, and Sensitive Compartmented
Information.
2
  Public trust positions are responsible for managing programs or operations that require a high degree of
public trust because of their ability to affect the accomplishment of the activity’s mission.


                                                      3
Security Clearances                                                   SA-AR-08-013
 for Postal Service Employees


additional postmaster and letter carrier positions, we reviewed employment data
for postmasters and letter carriers from the Postal Service Enterprise Data
Warehouse and Payroll System. Further, we reviewed Postal Service employee
arrest and conviction data provided by the OIG Office of Investigations for FYs
2005 through 2007.

Although we did not conduct extensive tests of the accuracy of computer-
generated data from the ISSCTS, we examined the data by using
computer-assisted analysis techniques and noted data quality weaknesses that
constrained our work. For example, the data did not always contain the
applicable job title for each Postal Service employee. However, we conducted a
comparative analysis of the data to data retrieved from the Postal Service
Enterprise Data Warehouse and Payroll System. We also discussed it with
responsible officials. As a result, we consider the data sufficiently reliable to
support the opinions and conclusions in this report.

We conducted this performance audit from January through August 2008 in
accordance with generally accepted government auditing standards and included
such tests of internal controls as we considered necessary under the
circumstances. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. We discussed our observations and conclusions
with management officials on July 22, 2008, and included their comments where
appropriate.

PRIOR AUDIT COVERAGE

In the past 3 years, the OIG issued four reports and the U. S. Government
Accountability Office (GAO) issued one report regarding Personnel Security.




                                        4
Security Clearances                                                  SA-AR-08-013
 for Postal Service Employees




                                         Final
                           Report       Report
  Report Title            Number         Date            Report Results
Postal Service’s        SA-AR-08-012   08/21/08   The Postal Service properly
Suitability                                       evaluated prospective
Screening                                         employees in the Capital
Process for                                       Metro Area for suitability in
Postal Service                                    accordance with policies
Employees in the                                  and procedures. However,
Capital Metro                                     management could improve
Area                                              internal controls to ensure
                                                  timely receipt of background
                                                  security reports for
                                                  employee suitability
                                                  screening.
Postal Service’s        SA-MA-08-001   02/12/08   Personnel security
Personnel                                         processes and procedures
Security Process                                  for conducting background
                                                  checks and granting
                                                  security clearances were
                                                  comparable to those used
                                                  by other federal agencies
                                                  and private sector entities.
                                                  Management concurred
                                                  with the issues identified in
                                                  the report.
Separation of           IS-AR-07-017   08/29/07   Policies, procedures, and
Duties at the                                     internal controls were
Eagan,                                            adequate to separate duties
Minnesota; San                                    for personnel accessing
Mateo, California;                                critical information system
and St. Louis,                                    resources at the data
Missouri                                          centers. However, controls
Information                                       to determine which career
Technology and                                    employees required
Accounting                                        sensitive security
Service Centers                                   clearances needed
                                                  strengthening.
                                                  Management concurred
                                                  with the issues identified in
                                                  the report.
Inspection              SA-AR-06-002   04/20/06   Security Investigative
Service Security                                  Service Center personnel


                                        5
Security Clearances                                                  SA-AR-08-013
 for Postal Service Employees


Investigations                                   generally followed policies
Service Center                                   and procedures to manage
                                                 and safeguard closed cases
                                                 and process Freedom of
                                                 Information Act requests.
                                                 However, opportunities
                                                 exist to improve the overall
                                                 management of the
                                                 Background Security
                                                 Clearance Program,
                                                 personnel security training,
                                                 and the 1510 Mail
                                                 Loss/Rifling Program to
                                                 more effectively and
                                                 efficiently support the Postal
                                                 Inspection Service’s
                                                 mission. Generally,
                                                 management concurred
                                                 with the issues identified in
                                                 the report.
Personnel               GAO-08-352T   02/27/08   Current and future efforts to
Clearances: Key                                  reform personnel security
Factors to                                       clearance processes should
Consider in                                      consider, among other
Efforts to Reform                                things, the following four
the Security                                     key factors: determining
Clearance                                        whether clearances are
Processes                                        required for positions,
                                                 incorporating quality control
                                                 steps throughout the
                                                 clearance processes,
                                                 establishing metrics for
                                                 assessing all aspects of
                                                 clearance processes, and
                                                 providing Congress with the
                                                 long-term funding
                                                 requirements of security
                                                 clearance reform.




                                       6
Security Clearances                                                                            SA-AR-08-013
 for Postal Service Employees


                            APPENDIX B: DETAILED ANALYSIS

Risk Assessment for Postal Service Positions

Postal Service officials did not periodically conduct a comprehensive risk
assessment of positions to determine if they required a security clearance.
Specifically, the latest comprehensive risk assessment was conducted in July
1999.

This occurred because management did not establish policies and procedures
requiring periodic assessments to determine risks associated with the duties of
all Postal Service positions.

Nearly 6,100 Postal Service employees have security clearances; however, a
majority of employees in positions such as postmasters and letter carriers do not
have security clearances. Some employees in these positions have access to
large amounts of Postal Service assets and have been convicted of crimes
against the Postal Service. Specifically, during FYs 2005 through 2007,
postmasters and letter carriers were arrested and convicted of committing
crimes, such as embezzling cash; stealing money order receipts, stamp stock
and postal revenue; selling drugs; failing to deliver and destroying mail; and
sexual assault. See the chart below for the number of postmasters and letter
carriers arrested and convicted during FYs 2005 through 2007.

                    Arrests and Convictions FYs 2005 through 2007

                                                                         Convictions
                       Position                    Arrests
                                                                       from Arrests3 4

                 postmasters                         114                       95
                 letter carriers                     170                       135

The Postal Service requires postmasters to prepare budgets and maintain
financial records. However, our analysis of the Postal Inspection Service’s
security clearance data found that only 60 of 38,1875 (.2 percent) postmasters
had security clearances. Forty-three of the 606 postmasters obtained their
security clearances because of their work in previous postal positions; their
collateral duties, such as security control officers; or special projects they worked
on that required security clearances.
3
  Eight postmasters were convicted in FY 2008, as were 16 letter carriers.
4
  Convictions for violation of a criminal statute may be grounds for disciplinary action against an employee,
including removal from their Postal Service position, in addition to any other penalty imposed pursuant to
statute.
5
  The total number of postmasters includes current postmasters and postmaster reliefs (temporary
postmasters).
6
  Officials could not determine why 17 of the postmasters obtained their security clearance.


                                                      7
Security Clearances                                                                                SA-AR-08-013
 for Postal Service Employees



Further, we found that 86 of 358,6237 (.02 percent) letter carriers had security
clearances. Postal Service officials informed us that most of the letter carriers
obtained their security clearances as contractors, prior to their tenure as Postal
Service letter carriers. The Postal Service granted some of the letter carriers
security clearances because they were either student interns, postal police officer
candidates, or detailed to Postal Inspection Service or Postal Service positions
that required a security clearance.

The purpose of a risk assessment is to identify positions that require security
clearances and to ensure individuals working in positions with certain associated
risks have appropriate security clearances. Since risks and threats change over
time, it is important that the Postal Service periodically reassess risks and
reconsider the appropriateness and effectiveness of applicable policies and
controls.

Postal Service Action

In response to a 2007 OIG report,8 the Postal Service has taken steps to assess
the risk of duties of all information technology and accounting service center
(IT/ASC) positions for the purpose of designating these positions as sensitive.
The Postal Service Security Group established a working group to assess
positions and they determined that 185 of 1,339 IT/ASC positions needed
security clearances. This is a positive step and we encourage the Postal Service
to apply the same approach for all Postal Service positions.




7
  The total number of letter carriers includes rural and city carriers that were full- time, part-time, casual, and
transition.
8
  Audit Report – Separation of Duties at the Eagan, Minnesota; San Mateo, California; and St. Louis,
Missouri Information Technology and Accounting Service Centers (Report Number IS-AR-07-017, dated
August 29, 2007).




                                                         8
Security Clearances                                    SA-AR-08-013
 for Postal Service Employees


                   APPENDIX C: MANAGEMENT’S COMMENTS




                                   9
Security Clearances                  SA-AR-08-013
 for Postal Service Employees




                                10
